(1
u
i

IN THE SUPREME COURT OF THE UNITED STATES

Ernest R. Jenkins, Y12825

FILED
JUL 1 6 2020
OFFICE OF THE CLERK
qi ippFME COURT, U.S.

Petitioner
v.
Daniel Clarke, Acting Warden, Taylorville Correctional Center
Respondent

ON WRIT OF CERTIORARI TO THE
UNITED STATES CIRCUIT COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

PETITION FOR CERTIORARI

Ernest R. Jenkins, Y12825
Pro Se
Taylorville Correctional Center
1144 IL Route 29
Taylorville IL 62568

'1
J

l

i

QUESTIONS PRESENTED FOR REVIEW
1. Was the Circuit Court's denial of the petitioner's

request for

a certificate of apealability (COA) erroneous?

2. Does the petitioner have a fundamental right to be prosecuted
in the state where an offense is committed?

3. Is an individual's constitutional right to be prosecuted in the
state where an offense was committed amendable to harmless
error?

i

List of Proceedings in the State and Federal Courts Below

Illinois Nineteenth Judicial Circuit Court; £aSe/N6; 14CF784
People of the State of Illinois v. Ernest R. Jenkins
Judgment Entered: April 6, 2016
Illinois Appellate Court, Second Judicial District; Case No. 2-16-0278
People v. Jenkins, 2018 IL App (2d) 160278-U
Judgment Entered: June 7, 2018
Illinois Supreme Court; Case No. 123854
People v. Jenkins, 108 N.E.3d 877 (2018)
Judgment Entered: September 26, 2018
United States District Court, Northern District of Illinois,
Eastern Division; Case # 1:18-cv-06696
Ernest R. Jenkins, Y12825 v. Kimberly Smith, Warden
Judgment Entered: February 20, 2019
United States Court of Appeals for the Seventh Circuit; Case No. 19-1450
Ernest R. Jenkins v. Daniel Clarke, Warden
Judgment Entered: February 20, 2020

TABLE OF CONTENTS
Questions Presented for Review

i

.Table of Authorities Cited

ii

Citations of Opinions and Orders in Case

1

Jurisdictional Statement

1

Constitutional Provisions and Statutes Involved
I.

State Statutes and Rules

2

II.

Federal Statutes and Rules

2

III. United States Constitution

3

IV.

3

Constitutional Provisions and Statutes Involved

Statement of Case
I.

Course of Proceedings Below

5

II.

Factual Background

6

III.

Trial Proceedings

7

IV.

Post-Trial Proceedinggs

8‘

V.
VI.

-Existence of Jurisdiction Below
The Circuit Court of Appeals Has Decided a Federal
Question in a Way That Conflicts With the Applicable
Decisions of This Court

10

11

ARGUMENT FOR ALLOWANCE OF WRIT
I.
II.

III.

The Circuit Court's Denial of the Petitioner's
Certificate of Appealability (COA) is Erroneous

12

There is a Conflict Between This Court's Decision in
Strassheim v. Daily (1911) 221 U.S. 280 and United
States v. Anderson, 328 U.S. 699 and Its Progeny

15

The Circuit Court's Consclusion That the Petitioner's
Claim Contains "No Showing of the Denial of a
Constitutional Right" is Erroneous

17

i.

Theft Offense

18

11.

Money Laundering Offense

19

i

)

Conclusion

P.

25

APPENDIX
Orders and Judgments of Courts Below.
Judgment of Conviction of the Illinois Nineteenth Judicial
Circuit Court

A. 1

Judgment and Opinion of the Illinois Appellate Court,
Second Judicial District

A. 2

Order of the U.S. District Court, Northern District of
Illinois, denying the Petitioner's Application Under
28 U.S.C. § 2254

A. 8

Judgment of the U.S. Court of Appeals, Seventh Circuit,
denying the Petitioner's Request for a Certificate of
Appealability

A. 11

Judgment of the U.S. Court of Appeals, Seventh Circuit,
denying the Petitioner's Petition for Rehearing En Banc

A. I?

Other Essential Material
1.

Petitioner's Application for Habeas Corpus Relief

A. 1 s

2.

Order from U.S. District Court Directing Respondent to
Respond to Petitioner's Request for Habeas Corpus Relief

A. 28

3.

Respondent's Answer to Petition for Writ of Habeas Corpus

A. 30

4.

Petitioner's Notice of Appeal and Docketing Statement

A- 2&_

5.

Respondent's Corrected Docketing Statement

A. 42

6.

Motion for Substitution of Party

A. as

7.

Petitioner's Petition for Rehearing En Banc

A. 49_

8.

Petitioner's Current Mandatory Release Date

A- _63_

9.

State's Information Charging Document

A. 64

Table of Authorities Cited
Arizona v. Fulminate, 499 U.S. 279, 307-10 (1991)

P.

22

Barefoot v. Estelle, at 893 n. 4 Pp. 6-8

P.

12

Barefoot v. Estelle, 103 S. Ct. 3383

P.

ii

Barefoot v. Estelle, 463 U.S. 880, 894

P.

12

Bates v. McCaughty, 934 F.2d 99, 101 (7th Cir. 1991)

P.

17

Erikson v. Pardus, 127 S. Ct. 2197, 2200 (2002)

P-

18

Estelle v. McGuire, 502 U.S. 62, 67-68 (1991)

P.

17

Hohn v. United States, 118 S. Ct. 1969

P.

11

In re Heft, 564 B.R. 389

P*

16

In re Repository Technologies, Inc., 381 B.R. 852

P.

16

Jones v. Basinger, 635 F.3d

P.

11

Loyd v. Van Natta, 296 F.3d 630, 633 (7th Cir. 2002)

P.

17

Nadar v. United States, 527 U.S. 1, 7 (1980)

P.

23

Perruget v. Briley, 390 F.3d 505, 511 (7th Cir. 2004)

P..

17

Platt v. Minesota Min. Mfg. Co., 84 S. Ct. 769

P.

21

Slack v. McDaniel, 529 U.S. 473 (2000)

P.

11

Strassheim v. Daily, 221 U.S. 280, 285 (1911)

P.

15

Travis v. United States, 364 U.S. 631, 634 (1961)

P.

21

United States ex rel. Jones v. Richmond, 245 F.2d 234 (C.A.2)

P.

13

United States v. Auernheimer, 748 F.3d 525, 532 (7th Cir. 2014'

p

24

United States v. Cabrales, 118 S. Ct. 1772

P.

15

• P.

21

United States v. Gonza Les-Lopez, 548 U.S. 140, 150 (2006)

P.

23

United States v. Miller, 111 F.3d 747, 757 (10th Cir. 1997)

P.

23

U.S. v. Muhammed, 502 F.3d 646 (7th Cir. 2007)

P.

11

U.S. v. Radley, 588 F.Supp.2d 865 (7th Cir. 2008)

P.

11

1030 (2000)

United States v. Cores, 356 U.S. 405, 407 (1958)

ii

i

.

U.S. v. Rodriquez-Moreno, 119 S. Ct. 1239 (1999)

P.

11

U.S. v. Rodriquez-Moreno, 119 S. Ct. 1239, 1241 (1999)

P.

15

Wilder v. Apfoel, 153 F.3d 799

P*

16

'i

i

Citations of Opinions and Orders in Case
The original conviction of the petitioner in the Illinois Circuit
Court, Nineteenth Judicial Circuit, is not reported, but is set
forth at P.

A1

of the Appendix.

The original conviction of the petitioner was appealed to the
Illinois Appellate Court, 2nd Judicial District, in an unreported
decision at

People v. Jenkins. 2018 IL Ann (2d) 160278-U
and is also set forth at pp.

A2

through

A?

of

the Appendix.

The opinion of the United States District Court for the Northern
District of Illinois on petitioner's Section 2254 Petition is not
reported, but is set forth at pp.

AS__ through

AlO

of the Appendix.

The decision of the Circuit Court of Appeals below is not reported
but is set forth at PP-

A11

through

M2

of the Appendix.

Jurisdictional Statement
The judgment of the United States Circuit Court of Appeals for the
Seventh Circuit was entered on

January 17, 2020. The petitioner

subsequently filed a Petition for Rehearing. The rehearing
petition was denied on February 20, 2020. The jurisdiction of
this Court is invoked under 28 U.S.C. § 1254(1).

1

Constitutional Provisions and Statutes Involved
State Statutes and Rules
720 ILCS 5/1-5 (State Criminal Jurisdiction)

P. 8

720 ILCS 5/l-5(b) (State Criminal Jurisdiction)

P- 18

720 ILCS 5/16-l(a)(1)(A) (Theft)

P-6, 18

720 ILCS 5/16-l(a)(2)(A) (Theft by deception)

P. 6

720 ILCS 5/17-50(a)(3) (Computer Fraud)

P- 6.13

720 ILCS 5/29B-1(a)(1)(A) (Money Laundering)

P-6f1q

725 ILCS 6/116-2) (Motion in Arrest Of Judgment)

P. 8

735 ILCS 5/10-101 et seq. (State Habeas Corpus)

P. Q

Illinois Supreme Court Rule 315 (Leave to Appeal from the
Appellate Court to the Supreme Court)

P. 10

Illinois Supreme Court Rule 367 (Rehearing in the Reviewing
Court)

P- 10

Illinois Supreme Court Rule 606 (Perfection of Appeal)

P. 10

Illinois Supreme Court Rule 612(b)(2) (Procedural Matters
Which are Governed by the Circuit Appeals Rules)

P- 10

Illinois Supreme Court Rule 612(b)(12) (Procedural Matters
Which are Governed by the Circuit Appeals Rules)

P. 10

Federal Statutes and Rules
28 U.S.C.A. § 1291

P. 11

28 U.S.C.A. § 2242

P. 17

28 U.S.C.A. § 2244(d)

P* 10

28 U.S.C.A. § 2253(c)

P.12

28 U.S.C.A. § 2253(c)(1)

P.12

28 U.S.C.A. § 2253(c)(2)

P* 12

28 U.S.C.A. § 2254

'P.5,17

28 U.S.C.A. § 2254(a)

P-10

28 U.S.C.A. § 2254(b)(1)(A)

P-10
2

28 U.S.C.A. § 2254(d)

P.16

Federal Rules of Appellate Procedure (FRAP) Rule 3(c)(1)

P.ll

Federal Rules of Appellate Procedure (FRAP) Rule 22(b)(2)

P.ll

United States Constitution
U.S. Constitution, Amendment VI
14,18,21,22

Pp • 8,9 f 10

U.S. Constitution, Article III

Pp •lkJA, 22

Constitutional Provisions and Statutes Involved
The Sixth Amendment of the U.S. Constitution provides: In all criminal
prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the state and district wherin
the crime shall have been committed, which district shall have been
previously ascertained by law, and to be informed of the nature
and cause of the accusation; to be confronted with the witnesses
in his favor, and to have the assistance of counsel for his
defense.

Article III, Section 2, Clause 3 of the U.S. Constitution provides:
The trial of all crimes except in cases of impeachment, shall be
by jury, and such trial shall be held in the state where said
crimes shall have been committed; but when not committed within any
state, the trial shall be at such place or places as the Congress
may by law have directed.

The statute under which the petitioner was prosecuted was Illinois
statute 720 ILCS 5/l-5(a)(l) (State Criminal Jurisdiction) which
provided: "A person is subject to prosecution in this State for an
3

f'

<

offense which he commits, while either within or outside the
State, by his own conduct or that of another for which he is
legally accountable, if...[t]he offense is committed either,
wholly or partly within the State."

4

Statement of Case
Course of^Proceedings Below:
The original conviction of the petitioner in the Illinois
Circuit Court, Nineteenth Judicial Circuit was not reported, but
is set forth at Pp.

Al

through

A1

On October 2, 2018, following

of the Appendix.

the exhaustion of his state

court remedies, the petitioner filed a petition for habeas corpus
relief in the U.S. District Court, Northern District of Illinois,
pursuant to 28 U.S.C. § 2254 (case No. 1:18 cv 06696, the
Honorable Manish S. Shah, presiding Judge) (Appendix Pp.
through

a?7

A15

)

On February 20, 2019, the U.S. District Court denied the petitioner's
habeas application and declined to issue a certificate of
appealability. (Appendix Pp.

A8

through

A10 )

The petitioner filed a timely Notice of Appeal and docketing
statement in the U.S. District Court on March 11, 2019, pursuant
to Rule 4(a) of the Federal Rules of Appellate Procedure. (Case
No. 19-1450) (Appendix Pp.

AS6

through

a41

)

On January 17, 2020, the U.S. Circuit Court of Appeals, Seventh
Circuit, denied the petitioner's request for a certificate of
appelability (C0A) (Appendix Pp All i

through

a 11

) The

petitioner subsequently filed a petition for rehearing en banc and
the circuit court declined the petitioner's request for rehearing
on February 20

2020. (Appendix Pp.

A1)

through

a 1L

)

The petitioner now appeals to the U.S. Supreme Court regarding
the deraiial of his request for a certificate of appealability.

5

Factual Background
On March 27

2014, the petitioner was formally charged via

Information through the Lake County, Illinois State's Attorney
of the following offenses: Theft (720 ILCS 5/16-l(a)(1)(A)(West
2014)(Count I); Theft by deception (720 ILCS 5/16-l(a)(2)(A) (West
2014) (Count II); Money Laundering (720 ILCS 5/29B-1(a)(1)(A) (West
2014) (Count III); and Computer Fraud (720 ILCS 5/17-50(a)(3)(West
2014) (Count IV).(Appendix P.

A64 )

On May 14, 2014, the Lake County State's Attorney sought and
obtained a superceding indictment for the aforesaid criminal
offenses. ; Appendix Ih>-

efirouah

The following facts are undisputed: The petitioner is a resident
of the State of Georgia :and during all times relevant to the
commission of the alleged offenses, the petitioenr was located
beyond the borders of the State of Illinois. The petitioner worked
as a

Benefits Operations Manager

at "AON Hewitt. AON Hewitt is a

third-party human resource outsourcing firm hired by other
corporations to assist with day-to-day human resource operations.
AON Hewitt, whose name changed to

AON' in 2012 as a result

of the completion of a merger, has its main office located in
Lincolnshire, Illinois

which is a subdivision of Lake County, IL.

AON has operations in 120 countries and operates numerous office
facilities throughout the United States^ The petitioner worked
exclusively at an AON office located in Atlanta, Georgia,
On February 27, 2014, AON, through one '.of its regional
corporate investigators, contacted the Lincolnshire Police
Department (herein after referred to as "L.P.D.) to report that
the petitioner had been suspected of processing various fradulent

6

transactions . XAppondix P.

■) A criminal investigation subsequently

ensued. On February 27th and 28th, 2014, respectively, L.P.D.
officials subpoened financial records from the petitioner's
bank accounts. At some point during the investigation an Illinois
Information was filed by the Lake County, Illinois State's Attorney
and anco^fbesponding arrest warrant was issued. (Appendix Pp.
through

A65

ASS )

On April 6, 2014, L.P.D. officials, with the assistance of law
enforcement officials with the Orange County, Florida Sherrif's
Department, arrested the petitioner in Orange County, Florida. The
petitioner was subsequently extradited to Lake County, Illinois.
Between April 7, 2014 and April 9, 2014, L.P.D. officials,
with the assistance of law enforcement officials with the Cobb
County, Georgia Sherrif's Department, conducted searches on the
petitioner's residence and place of business in Atlanta, Georgia.
Evidence from the aforementioned searches was transferred into the
State of Illinois ahd^subsequently handed over to the Lake County,
IL State's Attorney.
Trial Proceedings
The petitioner's state criminal trial commenced on February
23, 2016. The following testimony is pertinent to the issues raised
in the petitioner's federal habeas application: State's witness
George Geise testified as follows; (1) that the petitioner had acess
to AON's computer system via a local area network (LAN) connection
and via a virtual private network (VPN). (2) that the petitioner
was assigned to work out of AON's Atlanta, Georgia office and that
the petitioner had the ability to work remotely (outside of the
assigned facility) if needed. (Appendix Pp-r

7

through

(3) That AON's headquarters is located in Lake County
(Appendix P.

Illinois.

i); State's witness Curt Young testified as

follows: (1) That AON has operations in 120 countries.
through

)*•; State witness Detective John-Erik

Anderson testified as follows: (1) That the petitioner was a resident
of Georgia.

)- (2) That the petitioner used a lap

top computer owned by AON to access AON's networks and to p rocess
the fraudulent transactions. -{Appcnd-i-x-.-Pp~:

fch*ou£h
o

The petitioner was ultimately found guilty of the charged
offenses and was subsequently sentenced to the Illinois Department
of Corrections.
Post-Trail Proceedings
Following^ the trial proceedings, the petitioner filed a post­
trial Motion in Arrest of Judgment in the state trial court pursuant
to Illinois statute

, alleging that the

725 ILCS 5/116-2

State failed to prove that the offenses for which he is convicted
were committed even partly in Illinois. (Appendix-.p-vi __
__

A-

V In his post-trial motion, the petitioner cited the Sixth
.J

'

Amendment of the U.S. Constitution and cited relevant U.S. Supreme
Court precedent. The trial court denied the petitioner's motion
and the petitioner filed a timely notice of appeal.
State Appeal Proceedings
In his opening appellate brief, the petitioner alleged that
the state trial court lacked criminal jurisdiction to convict him
because the alleged offenses were committed wholly beyond the
borders of Illinois. In his brief, the petitoner cited the Illinois
Criminal Jurisdiction Statute (720 ILCS 5/1-5) > which subjects an
individual to prosecution in Illinois if a crime is committed either

8

wholly or partly within the state,

In his appellate brief the

petitioner also cited the Sixth Amendment of the U.S. Constitution
and cited relevant U.S. Supreme Court precedent.

The petitioner also cited relevant U.S. Supreme Court precedent
in his state appellate reply brief.

Appendix

While his state appeal was pending, the petitioner filed a
state habeas corpus petition in the Illinois Supreme Court pursuant
to Illinois statute 735 IT.CS 5/10-101

. In his habeas petition,

the petitioner alleged violation of his Sixth Amendment right to
be prosecuted in the state where the alleged offenses were committed.
(Appendia ■Pp-r

t-hroughr

In his habeas application, the

petitioner cited the Sixth Amendment of the U.S. Constitution and
cited relevant U.S. Supreme Court precedent. Additionally, in his
petition, the petitioner alleged that the jury in his case was
not properly instructed regarding the jurisdictional element of
the offenses. (Under Illinois law, jurisdiction is an element of
an offense that must be proven beyond a reasonable doubt - see
People v. Young. 312 Til. App. 3d 428, ASP (?non)
The Illinois Supreme Court denied discretionary review of the
petitioner's habeas petition, ■(/ipptthdix.

.

On June 7, 2018, the Illinois Appellate Court, Second Judicial
District affirmed the petitioner's convictions. In affirming the
convictions, the state appellate court found that even though the
petitioner's conduct occurred in Georgia, the conduct had an
economic effect on a corporation headquarted in Illinois. (Appendix
Pp* _A4

through

A5 )

The petitioner filed a timely petition for leave to appeal to

9

Illinois Supreme Court.

In his petiton for leave to appeal, the

petitioner cited the Sixth Amendment of the U.S. Constitution and
cited relevant U.S. Supreme Court precedent. (Appendix pp,.

Existence of Jurisdiction Below
The facts supporting the basis of the district court's subjectmatter jurisdiction are as follows: The district court aquired
jurisdiction over the petitioner's habeas case pursuant to
28 U.S.C.A. § 2254(a) and (b)(1)(A). The petitioner's criminal
proceeding was conducted in Lake County, Illinois, which is located
within the jurisdiction of the U.S. District Court, Northern District
of Illinois. The petitioner exhausted his state court remedies by
filing a timely notice of appeal in the Illinois trial court
pursuant to Illinois Supreme Court Rule 606. The petitioner was
sentenced on April 6, 2016, and a notice of appeal was filed on
April 8, 2016. The appeal was denied on June 7, 2018, and the
petitioner filed a for rehearing in the Illinois appellate court
pursuant to Illinois Supreme Court Rules 367 and 612(b)(14).
The rehearing petition was filed on June 18, 2018, and
the appellate court denied discretionary review of the petition on
July 11, 2018. The petitioner then filed a timely petition for leave
to appeal to the Illinois Supreme Court pursuant to Illinois Supreme
Court Rules 315 and 612(b)(2). The petition was filed on August 1,
2018

and the Illinois Supreme Court denied discretionary review of

the petition on September 26, 2018.
The petition subsequently filed an application for habeas
corpus review in the U.S. District Court, Northern District of
Illinois on October 2, 2018, pursuant to 28 U.S.C.A.
§ 2244(d)
10

The facts supporting the basis of the U.S. .Circuit Court of
Appeals subject-matter jurisdiction are as follows: The U.S. District
Court denied the petitioner's habeas application and declined to
issue a certificate of appelability on February 20, 2019.
The U.S. Gircuit Court of Appeals, Seventh Circuit obtained
juridiction over the petitioner's appeal pursuant to Rule 22(b)(2)
of the Federal Rules of Appellate Procedure (FRAP) after the
petitioner filed a timely Notice of Appeal and docketing statement
in the district court on March 11, 2019, pursuant to Rule 4(a) of
FRAP and Rule 3(c)(1) of the circuit court rules. The judgment
appealed from was final within the meaning of. 28 U.S.C.A. § 1291
because it disposed of all claims of all parties to the action.
The-;-CotH.t- «f Appealo has -decided—a fedc-ral question-bn a way that^
The Circuit Court of Appeals Has Decided a Fedeal
Question In a Way That Conflicts With the Applicable
Decisions of This Court
The decision reached by the circuit court panel related to
the appeal subject to this application

conflicts with decisions

of the U.S. Supreme Court and with authoratative decisions set
by other federal Circuit Courts of Appeal, (see Barefoot v. Estelle,
103 S. Ct. 3383, 463 U.S. 880, 77 L.ED.2d 1090; Slack v. McDaniel,
529 U.S. 473 (2000); see also Jones v. Basinger, 635 F.3d 1030 (2000);
U.S. v. RodriquezOMoreno, 119 S. Ct. 1239 (1999); U.S. v. Radley,
588 F.Supp.2d 865 (7th Cir. 2008); and U.S. v. Muhammad, 502 F.3d
646 (7th Cir. 2007))
This petition involves the denial of the petitioner's application
for a certificate of appealability (C0A). (see Hohn v. United States,
118 S. Ct. 1969)
In denying the petitioner's COA request, the Circuit Court

11

held that it had "reviewed the final order of the district court
and the record on appeal" and found "no substantial showing of the
denial of a constitutional right."
The petitioner contends that the circuit court panel's decision
is erroneous.
ARGUMENTS
The Circuit Court's Denial of the Petitioner's
Request for a Certificate of Probable Cause is Erroneous
"Where a habeas petitioner seeks to initiate an appeal of
the dismissal of his petition for habeas corpus relief after April
24, 1996 (AEDPA's effective date), the right to appeal is
governed by the requirements now found at § 2253(c)-- which provides
inter alia, that such appeal may not be taken unless a circuit
Justice or judge issues a certificate of appealability (COA)

§

2253(c)(1), and that COA may issue only if the appellant has made
a substantial showing of the denial of a constitutional right, §
2253(c)(2)."
"[T]he present £ 2253 is a codification of the [certificate
of probable cause], CPC standard announced in Barefoot v. Estelle
463 U.S. 880, 894, 77 K.Ed.2d 1090, 103 S. Ct. 3383. See Williams
v. Taylor, ante."
"Under Barefoot, a substantial showing of the denial of a right
includes showing that reasonable jurists could debate whether (or
for that matter, agree that) the petition should have been resolved
in a different manner or that the issues presented were 1'adequate
to deserve encouragement to proceed further'." [Barefoot at 893
n. 4, Pp 6-8]
"In requiring a 'question of some substance', or a 'substantial
showing of the denial of [a] federal right', obviously the

12

petitioner need not show that he should prevail on the merits.
Rather, he must demonstrate that the issues are debatable amoung
jurists of reason; that a court 'could' resolve the issues [in a
different manner]; or that the questions are adequate to deserve
encourgement to proceed further (emphasis added)". [Barefoot
citing United States ex rel. Jones v. Richmond, 245 F.2d 234 (C.A. 2)

In the case sub judice, the record shows that the petitioner is
currently incarcerated on theft offenses in violation of Illinois
statute 720 ILCS 5/16-1 and a money laundering offense in violation
with Illinois statute 720 ILCS 5/29B-1. The aforesaid offenses are
being served concurrently. The current mandatory sentence release
(MSR) date is Setempber 28, 2022. (Appendix P.

A63 )

The record also reflects that the petitioner was convicted of a
computer fraud violation pursuant to Illinois statute 720 ILCS
5/17-50, however, the sentence for the computer fraud offense
ended in October of 2017.

The petitioner contends that he is currently incarcerated
in Illinois for offenses that were not committed in Illinois/
The petitioner's prosecution and subsequent convictions related
to the theft and money laundering offenses violates the
petitioner's

constitutional right to be prosecuted in the state

where the alleged offenses were committed as afforded under Article
III and the Sixth Amendment of the U.S. Constitution.
The petitioner contends that the record in fact reflects a
substantial showing of the denial of a constitutional right.

13

The petitioner further contends that his habeas petition
eouldMand should have been resolved in a different manner and
that the issue presented is adequate to deserve encouragement to
proceed further.
The petitioner's contentions are supported by the following
facts:
In his petition for habeas corpus relief, the petitioner
alleged that his convictions in Illinois are in violation of his
Constitutional rights under Article III and the Sixth Amendment of
the U.S. Constitution. (Appendix Pp.

A9A

through

a9S

)

In responding to the petitioner's claim, the respondent
conceded that the petitioner's conduct occurred outside of Illinos,
however, according to the respondent, the conduct resulted in
economic harm to a company headquarted in Illinois. Specifically,
the respondent argued that the petitioner's prosecution in Illinois
was proper because AON, whose headquarters is located in Illinois
was ultimately "required to reimburse the client accounts and
ultimately suffered the $4.6 million loss...". (Appendix Pp.
through

ASS

ASS )

The petitioner asserts that as it relates to an individual's
constitutional right to be prosecuted in the state where the
alleged offenses were committed, the U.S. Supreme Court has never
held that the

effects

of criminal conduct, standing alone,

warrants the prosecution of the individual in a particular state.
In determining where a crime was committed, the U.S. Supreme
Court has consistently held that "[u]nder the locus delicti test,
a court

must' initially identify the conduct constituting the

offense, (the nature of the offense) and then discern where the
c r i in

14

' >

criminal

acts' occurred." [U.S. v. Rodriguez-Moreno, 119 S. Ct.

1239, 1241 (1999); citing United States v. Cabrales, 118 S. Ct.
1772]

There Is a Conflict Between This Court's Decision in
Strassheim v. Daily (1911) 221 U.S. 280 and
^United States v. Anderson, 328 U.S. 699 (1998) and It£s Progeny
In concluding that there was no fundamental unfairness related to
the petitioner's constitutional claim, the district court relies
on Strassheim v. Daily, 221 U.S. 280, 285 (1911). According to th*
district court, there was "no fundamental unfairness [] because
it has long been understood that acts done outside a jurisdiction
but intended to produce and producing detrimental effects within
it, justify a state in punishing the cause of the harm as if he had
been present in the effect. Strassheim v. Daily

221 U.S. 280, 285

(1911)." Accordingly, the district court found that since there was
no fundamental unfairness

the petitioner claim does not contain

a substantial showing of, the denial of a constitutional right*
The petitioner contends that the federal district court's
reliance on Strassheim v. Daily is misplaced and conflicts with
decisions made by this Court.
The district court appears to cite Strassheim as support for
the proposition that the federal Constitution does not prohibit a
state from exercising jurisdiction over criminal acts that take
place outside of the sate if the results of the crimes are intended
to, and do cause harm within the sfete.
The petitioner contends that the district court's decision
conflicts with this Court's decision in United States v. Anderson
and its progeny.

15

The petitioner further contends that the district court's
reliance on the passage referred to in Strassheim is in
contravention with 28 U.S.C.A. § 2254£d* in that the passage
is dictum and as such should not be applied to the petitioner's
habeas case.
"Dicta are parts of an opinion that are not binding on a
subsequent court, whether as a matter of stare decisis or as a
matter of law of the case. [Wilder v. Apfoel, 153 F.3d 799]
"Holding of case includes the facts, outcome, and reasoning
essential to that outcome." [In re Repository Technologies, Inc.
381 B.R. 852]
"Dictum is any statement made by court for use in argument,
illustration, analogy or suggestion, concerning some rule of law
or legal proposition that is not necessarily essential to the
decision and lacks authority of adjudication."

[in re Heft, 564

B.R. 389]
The petitioner contends that the passage relied on by the
district court is dictum and does not constitute a holding
issued by this Court.

16

The Circuit Courf's Conclusion That The Petitioner's Claim
Contains "No Showing of the Denial of a Constitutional
Right" is Erroneous
Generally speaking, federal habeas relief is unavailable to
retry state-law issues. [Estelle v. McGuire, 502 U.S. 62, 67-68
112 S. Ct. 475, 116 L. Ed. 385 (1991)] Only if the error rises to
the level of a federal constitutional violation is the claim
cognizable in federal collateral review proceedings, [id] "In
conducting habeas review, a federal court is limited to deciding
whether a conviction violated the Constitution, laws, or treaties
of the United States." [id] "The remedial power of a federal court
is limited to violations of the petitioner's rights^ so only if a
state court's power has deprived the petitioner of a right under
federal law can the federal court intervene.: [Perruget v. Briley,
390 F.3d 505, 511 (7th Cir. 2004) "To say that a petitioner's claim
is not cognizable on habeas review is thus another way of- saying
that a petitioner's claim presents no federal issue at all." [ID;
citing Bates v. McCaughty, 934 F.2d 99, 101 (7th Cir 1991)]
A petition for writ of habeas corpus filed by a state prisoner
must (1) specify all the grounds for relief available to the
petitioner; (2) state the facts supporting each ground; and (3)
state the relief under penalty of perjury by the petitioner or
by a person authorized to sign for it for the petitioner under
28 U.S.C.A. § 2242. (Rule 2(c) pf the Rules Governing Section 2254
Cases in the United States District Court) "There is no requirement
that a habeas petitioner enunerate in his petition, every fact
which supports a ground for relief" or plead his claim with
particularity. [Loyd v. Van Natta, 296 F.3d 630, 633 (7th Cir. 2002)]
['A] pro se complaint, however inartfully pleaded, must be held
to- lc3o atring-en-b s.V:
17

to less stringent standards than formal pleadings drafted by
lawyers. [Erikson v. Pardus, 551 U.S. 90, 127 S. Ct. 2197

2200

(2002)] (Pleadings must be construed so as to do justice - Rule
8(e) of the Rules of Civil Procedure, Effective December 1, 2010)
The petitioner contends that, pursuant to Article III and the
Sixth Amendment of the United States Constitution, he has a
funamental right to be prosecuted in the state where the alleged
offenses were committed and that the State of Illinois does not
have the power to arbitrarily deprive the petitioner of that
right.
The petitioner in this case has been charged with and convicted
of theft, money laundering, and computer fraud. Under Illinois law,
none of the offenses are defined in terms of their effects and the
State provided no evidence demonstrating that the petitioner's
conduct outside of the state resulted in a crime being committed
in Illinois.
The Theft Offense
As it relates to the theft offense, the State's indictment
charged the petitioner with obtaining unauthorized control over
property of another with intent to permanently deprive the owner
of the use of the property, in violation of Illinois criminal code
720 ILCS 5/16-l(a)(1)(A).

(Appendix P.

A64 ) The theft offense

is defined in terms of a conduct element without regard to any
result.
Under Illinois law, a crime is committed partly within the state
"if either the conduct, which is an element of the offense, or the
result

which is such an element, occurs within the state." (see

Illinois statute 720 ILCS 5/l-5(b))
T

18

J

The conduct element of the theft offense is 'obtaining control
over property'. The evidence presented in the state court
demonstrates that the petitioner obtained control over U.S. Currency
via bank accounts that he controlled. The evidence further shows
that the bank accounts were established, controlled and maintained
by the petitioner in the State of Georgia. The State provided no
evidence demonstrating that the currency was obtained in or passed
through the State of Illinois. Furthermore, neither the State or
the respondent in this cause has disputed the fact that the conduct
related to the theft offense occurred entirely in another state.
The Money Laundering Offense
As it relates to the money laundering offense, the State's
indictment charged the petitioner with knowingly engaging in a
financial transaction, with intent to promote the carrying on of
the unlawful activity from which the criminally derived property
was obtained, in violation with Illinois criminal code 720 ILCS
5/29B-1(a)(1)(A). (Appendix P.

ASA )

The evidence presented in the state court demonstrates
that the petitioner transferred illegally derived currency into
business entities that he controlled. The evidence shows that the
business entities were established and controlled in the State of
Georgia. The evidence shows that the business entities were
registered in the State of Georgia and the evidence shows that
the money laundering transactions were processed in the State of
Georgia.
As with the theft offense, the money laundering offense is
defined solely in terms of a conduct element without regard to a
result. Here again, neither the State or the respondent in this

19

Ml

3

cause has disputed the fact that the conduct related to the
money laundering offense occurred entirely in the State of Georgia.

The Illinois appellate court found jurisdiction/venue over
the money laundering offenses proper because the petitioner's
conduct resulted in economic harm to a corporation headquarted in
Illinois. (Appendix P. A3 ; Appendix Pp.

A4

through _A5__)

The petitioner would like to note that the state appellate
court never passed judgment on the petitioner's federal claim
even though the petitioner sufficiently raised a federal claim
in his various state court pleadings. (Appendix Pp.

47 )

through

The state court's ruling was based solely on state law and

contained no hint of constitutional analysis. The respondent has
not disputed the petitioner's assertion that he fully and fairly
presented his constitutional claim at every level of the State
court system.

In any case, the petitioner contends that the court's
conclusion that his claim presents no substantial showing of the
denial of a constitutional right is erroneous because the facts
as outlined in the petitioner's petition and as demontrated in
tin the pleadings filed in the district court clearly show that
the petitioner's conviction is in violation with his constitutional
right to be prosecuted in the state where the alleged offenses
were committed. The petitioner contends that the claim is
debatable amoung jurists of reason and that the questions presented
deserve encouragement to proceed further.

20

*lf J

The petitioner emphasizes that he has a fundamental right to
be prosecuted in the state where the offenses were committed. "The
determination of proper venue in a criminal case requires
determination of where the crime was committed; the provision for
trial in the vicinity of the crime is a safeguard against the
unfairness and hardship when the accused is prosecuted in a remote
place." [Platt v. Minesota. Min. Mfg. Co. 84 S. Ct. 769

376

U.S. 240 11 L. Ed. 2d 674]
Just as an individual has a right to counsel and a right to
trial by jury, the Sixth Amendment of the U.S. Constitution also
affords an individual the right to be prosecuted in the state
where the alleged crime was committed; And while this right can be
waived by the accused, the petitioner in this case did not waive
that right and the State nor the respondent has ever asserted that
the petitioner forfeited his right. Moreover, the state should not
be allowed to arbitrarily violate an individual's constitutional
right.
The U.S. Supreme Court has repeatedly made clear that the
constitutional limitations on venue are extraordinarily important.
"[Qjuestions of venue are more than matters of mere procedure. They
raise deep issues of public policy in the light of which legislation
must be construed." [Travis v. United States, 364 U.S. 631, 634,
81 S. Ct. 358, 5 L. Ed 2d 340 (1961)] "The provision for trial
in the vicinity of the crime is a safeguard against the unfairness
and hardship involved when an accused is prosecuted in a remote
place, (emphasis added) [United States v. Cores, 356 U.S. 405,
407, 78 S. Ct. 875, 2 L. Ed. 873 (1958)]
)

"A defendant who has been convicted "in a distant, remote, or

21

M J

unfriendly forum

solely at the prosecutor's whim", has had his

substantial rights compromised. [United States v. Salinas, 373
F.3d 161, 164 (1st Cir. 2004)]

Certainly if the petitioner in this case had directed his
criminal activity towards Illinois to the extent that he committed
acts in Illinois in furtherance of a conspiracy or attempt to
commit a crime in the State or if the petitioner performed one
of the essential elements of the charged offenses within the state,
he would have no grounds to complain about his uprooting. But that
is clearly not what happened in this case.
Here

the petitioner was extradited hundreds of miles against

his will to face prosecution in a distant state where none of the
essential elements of the charged offenses were committed. And each
time the petitioner raised the issue regarding his prosecution in
Illinois, the State has asserted that it is because the victim
corporation's headquarters is located in Illinois.

The petitioner contends that the venue provisions contained
under Article III and the Sixth Amendment of the U.S. Constitution
are meant to protect the accused

not as a convenience for a

particular party.
Moreover, the fact that the State violated the petitioner's
right is not amendable to harmless error. The U.S. Supreme Court
has never held that improper venue is subject to harmless error.
The Supreme Court has divided constitutional errors into two
classes: "trial" and "structural". [Arizona v. Fulminante, 499
U.S. 279, 307-10, 111 S. Ct. 1246

22

113 L. Ed. 2d 302 (1991)]

*•

Trial errors occur "during the presentation of the case to
the jury" and can be quantitatively assessed in the context of
other evidence presented in order to determine whether they are
"harmless beyond a reasonable doubt." [ID at 307-308] These
include "most constitutional errors." [id at 306] Structural
errors 'defy1 harmless error analysis because they "affect [] the
framework within which the trial

proceeds." [Id at 309-310 "or

indeed [] whether it proceeds at all." [United States v. GonzalesLopez, 548 U.S. 140, 150, 126 S. Ct. 2557, 165 L. Ed. 2d 409
(2006)]
These include a limited class of fundamental constitutional
errors;" [Nedar v. United States, 527, 1, 7, 119 S. Ct. 1827, 144
L. Ed. 2d 35 (1980)], such as the denial of the rights to counsel,
self-representation, or a public trial, [see Gonzales-Lopez, 548
at 149 (listing examples and authority)]
An error regarding venue exhibits many of the characteristics
of structural error. "If venue is improper, no constitutionally
valid verdict could be reached regardless of the overwhelming
evidence against the defendant." [United States v. Miller, 111
F.3d 747, 757 (10th Cir. 1997)] The error thus defies analysis by
harmless error standards by affecting the entire adjudicatory
frame work." [Puckett v. United States, 556 U.S. 129, 141, 129
S. Ct. 1423, 173 L. Ed. 2d 266 (2009)]
"Holding that defective venue could ever be harmless would
argubly reduce this constitutional protection to a nullity
because the error would be harmless as long as the evidence
against the accused was overwhelming. It is doubtful that this
is the way the venue protections in the constitution were meant to

23

*•
-

•>

operate." [United States v. Auernheimer, 748 F.3d 525, 532 (3rd
Cir. 2014)]

24

0

.* * -3

CONCLUSION
Based on the facts and legal contentions raised in this
the Petitioner contends that the

petition,

judgment of the court below is

in contravention with 28 U.S.C. § 2253(c)(2) and is a unique
departure from the decisions of this Court that requires that
all prosecutions be conducted in the state wherein an alleged crime
is committed. It is well established that Article III and the
Sixth Amendment of the United States Constitution provides
citizens

a fundamental and substantial right to be prosecuted

by a jury of their peers in the state where a crime is committed.

WHEREFORE, the Petitioner requests that this Honorable Court
grant his petition for writ of certiorari.

Respectfully submitted,
<

Ernest R. Jenkins, Petitioner, pro se

Ernest R. Jenkins, Y12825
Taylorville Correctional Center
1144 IL Route 29
Taylorville, IL 62568

25

